O   National Endowment for the
F
           Humanities
F
I
C
E

O
F

I
N
S
P
E
C
T
     S E M I A N N UA L
O
R        R E P O RT
G    T O CONGRESS
E
N
E           October 1, 2001 to March 31, 2002
R
A                                                         REPORT NO. 26

L       “Democracy demands wisdom and vision in its citizens”
      National Foundation on the Arts and Humanities Act of 1965
                       THE OFFICE OF INSPECTOR GENERAL

                                  serves American taxpayers
                            by investigating reports of waste, fraud,
                         mismanagement, abuse, integrity violations or
                          unethical conduct involving federal funds.


                                To report any suspected activity
                       involving NEH programs, operations, or employees


                                        Call the OIG Hotline

                                   The Number is: (202) 606-8423

                                      The Mailing Address is:

                         Office of Inspector General-Hotline
                       National Endowment for the Humanities
                               1100 Pennsylvania Ave. N.W., Room 419
                                      Washington, DC 20506

                                       FAX: (202) 606-8329


                                    ELECTRONIC MAIL HOTLINE
                                         OIG@neh.gov




 Government employees are protected from reprisal

 Caller can remain anonymous

 Information is confidential




This report is also available on the NEH/OIG Website, at http://www.neh.gov/whoweare/oig.html
                                           April 30, 2002


Honorable Bruce Cole
Chairman
National Endowment for the Humanities
Washington, D.C. 20506

Dear Chairman Cole:

I am pleased to welcome you to the National Endowment for the Humanities and respectfully sub-
mit the Semiannual Report to Congress for the first half of fiscal year 2002. The report is submit-
ted in accordance with the Inspector General Act of 1978, as amended. Section 5 of the Act re-
quires that the you submit this report, with your Report of Final Action, to the appropriate commit-
tee or subcommittee of the Congress within 30 days of its receipt. The report provides a summary
of the activities of the OIG during the six-month period ended March 31, 2002.

During this period, we continued our work on the second phase of the Government Information Se-
curity Reform Act review. This review is taking a significant effort from the OIG and we believe
the agency will greatly benefit by implementing our recommendations. We also continued our
work with independent public accountants who are performing Office of Management and Budget
Circular A-133 audits of NEH grantees.

I appreciate your support and look forward to working with you and agency staff to help ensure that
NEH delivers grant awards in an economical, effective and efficient manner.

                                         Sincerely,




                                        Sheldon L. Bernstein
                                        Inspector General
                                                      TABLE OF CONTENTS



LETTER TO THE CHAIRMAN

INTRODUCTION ..........................................................................................................................   1

AUDIT AND REVIEW ACTIVITIES................................................................................................               2

INVESTIGATIVE ACTIVITIES ………………………………………………………………………….....                                                                                8

OTHER ACTIVITIES.....................................................................................................................     10

TABLE I - REPORTING REQUIREMENTS……………………………………………………………….                                                                                 12

TABLE II - INSPECTOR GENERAL-ISSUED REPORTS ..............................................................                                13
WITH QUESTIONED COSTS

TABLE III - INSPECTOR GENERAL-ISSUED REPORTS WITH ...................................................                                     13
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

GLOSSARY OF AUDIT TERMINOLOGY......................................................................................                       14
                                             INTRODUCTION



                      THE NATIONAL ENDOWMENT FOR THE HUMANITIES

In order to promote progress and scholarship in the           The Act that established the National Endowment for the
humanities and the arts in the United States, Congress        Humanities says "The term 'humanities' includes, but is
enacted the National Foundation on the Arts and the           not limited to, the study of the following: language, both
Humanities Act of 1965. This Act established the National     modern and classical; linguistics; literature; history;
Endowment for the Humanities as an independent grant-         jurisprudence; philosophy; archaeology; comparative
making agency of the federal government to support            religion; ethics; the history, criticism, and theory of the arts;
research, education, and public programs in the               those aspects of social sciences which have humanistic
humanities. Grants are made through four divisions -          content and employ humanistic methods; and the study
Research Programs, Education Programs, Preservation           and application of the humanities to the human
and Access, and Public Programs -- and two offices --         environment with particular attention to reflecting our
Challenge Grants and Federal-State Partnership.               diverse heritage, traditions, and history and to the
                                                              relevance of the humanities to the current conditions of
                                                              national life."




                                   THE OFFICE OF INSPECTOR GENERAL

 The NEH Office of Inspector General was established on           ·   reports directly to Congress.
 April 9, 1989, in accordance with the Inspector General
 Act Amendment of 1988, (Public Law 100-504). In this             The Act states that the Office of Inspector General is
 legislation, Congress established Offices of Inspector           responsible for (1) conducting audits and investigations;
 General in several departments and in thirty-three               (2) reviewing legislation; (3) recommending policies to
 agencies, including the NEH. The NEH Inspector                   promote efficiency and effectiveness; and (4) preventing
 General (IG) is appointed by the Chairman. The                   and detecting fraud, waste, and abuse in the operations
 independence of the IG is an important aspect of the Act.        of the agency. The Inspector General is also responsible
 For example, the IG:                                             for keeping the Chairman and Congress fully and
                                                                  currently informed of problems and deficiencies in the
 ·    cannot be prevented from initiating, carrying out, or       programs and operations.
      completing an audit or investigation, or from issuing
      any subpoena;                                     The OIG staff consists of the Inspector General, a Deputy
                                                        Inspector General for Audits, two auditors, and a
 ·    has access to all records of the agency;          secretary. The OIG and the Office of General Counsel
                                                        (OGC) have a Memorandum of Understanding detailing
 ·    reports directly to the Chairman, and can only be the procedures for the OIG to be provided with OGC legal
      removed by the Chairman, who must promptly advise services. Investigations are handled by the Inspector
      Congress of the reasons for the removal; and      General, an auditor and as required by the agency’s
                                                        Assistant General Counsel.




NEH OIG Semiannual Report                                     1                                                     March 2002
                                    AUDIT AND REVIEW ACTIVITIES
  This office is responsible for external and internal audits.   programmatic, and financial operations.
  External auditing includes grants, pre-award accounting        During this reporting period, the OIG received and
  system surveys, review of OMB Circular A-133 reports,          processed 93 OMB Circular A-133 audit reports and
  and on-site quality control reviews of CPA work papers.        issued seven memorandum reports containing findings
  Internal efforts consist of audits, inspections, and           (see Single Audit Act Reviews).
  reviews/evaluations of the NEH administrative,



                                          LIST OF AUDIT REPORTS ISSUED
  The following is a list of audit/survey reports issued by the of Questioned Costs" (including a separate category for
  OIG during this reporting period. The Act requires us to      the “Dollar Value of Unsupported Costs”). None are re-
  report on the "Dollar Value of Recommendations that           ported during this period.
  Funds Be Put to Better Use" and the "Total Dollar Value




INTERNAL AUDITS/REVIEWS                                              Report Number              Date Issued


Fiscal Year Ended September 30, 2001 Consolidated Review             OIG-02-01 (IR)             01/28/02
 of the Federal Managers’ Integrity Act (FMFIA)

Limited Review of the Government Travel Card Program                 OIG-02-02 (IR)             03/28/02

Review of Information Technology Contingency Planning and            OIG-02-03 (IR)             03/29/02
 the Planning Process

Review of National Endowment for the Humanities                      OIG-02-04 (IR)             03/19/02
 Equal Employment Opportunity Program


EXTERNAL AUDITS/REVIEWS

Review of Independent Public Accountant (IPA)                        OIG-02-101 (QCR)           11/07/01
 Workpapers for Financial Statement and
 Compliance Audit of the Florida Humanities Council
 Fiscal Year Ended October 31, 2000

Quality Control Review of V.H. Stanley and Associates                OIG-02-102 (QCR)           03/14/02
 Audit of the Amerika Samoa Humanities Council for the Fiscal
 Year Ended October 31, 1998

Quality Control Review of J. Scott Magliari &                        OIG-02-103 (QCR)           03/14/02
 Company, CPAs Audit of the Northern Mariana Islands
 Humanities Council for Fiscal Year Ended
 October 31, 1999

Quality Control Review of Justin J. Scanlan, CPA, Audit of the       OIG-02-104 (QCR)           03/27/02
 Louisiana Endowment for the Humanities for the Year
 Ended October 31, 2000




  NEH OIG Semiannual Report                                      2                                               March 2002
EXTERNAL AUDITS/REVIEWS (Continued)                            Report Number       Date Issued

Quality Control Review of Ernst and Young, LLP Audit of the    OIG-02-105 (QCR)    03/28/02
 New York Public Library, Astor, Lenox and Tilden Foundation
 for the Year Ended June 30, 2000


SINGLE AUDIT ACT REVIEWS

Heard Museum                                                   OIG-02-01 (CAA)     03/29/02
Virgin Islands Humanities Council                              OIG-02-02 (CAA)     03/29/02
Humanities Tennessee                                           OIG-02-03 (CAA)     03/29/02
Rhode Island Committee for the Humanities                      OIG-02-04 (CAA)     03/29/02
Rhode Island Committee for the Humanities                      OIG-02-05 (CAA)     03/29/02
Alabama Humanities Foundation                                  OIG-02-06 (CAA)     03/29/02
Vermont Council on the Humanities                              OIG-02-07 (CAA)     03/29/02




PRE-AWARD ACCOUNTING SYSTEM TELEPHONE SURVEYS

James Agee Film Project                                        OIG-2002-101 (TS)   11/20/01

Newport Historical Society                                     OIG-2002-102 (TS)   03/22/02




NEH OIG Semiannual Report                                3                                    March 2002
                               SUMMARY OF REPORTS ISSUED


                                               INTERNAL REVIEWS

Fiscal Year Ended September 30, 2001 Consolidated status). None of the inappropriate charges were reim-
Review of the Federal Managers’ Integrity Act (FMFIA) bursed by NEH because they were not claimed by staff.
January 28, 2002         OIG-02-01 (Internal Review)
                                                         We made two recommendations for the NEH Accounting
We performed a limited review of the information submit- Office to (1) periodically remind NEH staff via email on
ted by each office head/division director and the chair- the appropriate use of the card, and (2) periodically re-
man’s letter sent to President Bush. Our review covered view the bank reports for inappropriate charges.
fiscal year ended September 30, 2001. We found that the
agency generally complied with the Act. To the deputy
chairman, we made several suggestions for follow-up      Review of Information Technology Contingency Plan-
concerning the office heads’ and division directors’ re- ning and the Planning Process
ports.                                                   March 29, 2002             OIG-02-03 (Internal Review)

                                                             This is the third in a series of reviews that the OIG is
Limited Review of the Government Travel                      working on as part of our review of the agency’s informa-
Card Program                                                 tion security program in accordance with the Government
March 28, 2002        OIG-02-02 (Internal Review)            Information Security Reform Act (GISRA). We will report
                                                             the results of this review and subsequent reviews to the
The NEH OIG received a letter from Senator Charles F.        Office of Management and Budget in September 2002.
Grassley, Ranking Member, Committee on Finance, con-
cerning the misuse of government charge cards by fed-        The objective of the review was to assess the current Of-
eral employees. The senator noted that he was troubled       fice of Information Resources Management (OIRM) plans
by “...reports of the government paying for employees’       to address any possibility of disruptions of IT services, the
personal expenses because of the unauthorized use of         strategies necessary to recover from those disruptions,
government charge cards.” Therefore, we began a re-          and the process by which the plans were developed. For
view of the NEH government travel card program.              guidance concerning plan development we used the Na-
                                                             tional Institute of Standards and Technology (NIST) Spe-
The objectives of the review were to determine if (1) NEH cial Publication 800-34: Contingency Planning Guide for
employees were using their NEH government credit cards Information Technology Systems.
for personal and inappropriate purposes; (2) NEH em-
ployees were paying their bills in a timely manner; and (3) Our review disclosed that OIRM needs a written contin-
the credit card bank company had to write-off fraudulent     gency planning policy to provide the authority and guid-
debts for the cards.                                         ance necessary to develop an effective OIRM contin-
                                                             gency plan. We also found that OIRM (1) lacked a written
Our review revealed that generally NEH staff (1) used        internal policy regarding plan testing, testing of backup
their NEH travel cards appropriately, however, some ex- media and a backup policy; (2) had not conducted a risk
ceptions were noted, (2) paid their bills in a timely manner analysis to identify systems risks and had made no at-
(except for an occasional disputed charge), and (3) did      tempts to determine the likelihood of a risk actually occur-
not require the bank to incur any charge-offs. A prepon- ring; and (3) did not adequately document the recovery
derance of the exceptions were charges clearly made          strategies that would be used to recover the IT systems.
because the employee used the wrong card (in the D.C.
area), or the employee was unaware of the restrictions       We made ten recommendations to improve the deficien-
(paying for spouse or colleague while on official travel     cies identified. We are pleased that the CIO is receptive
                                                             to the recommendations.




NEH OIG Semiannual Report                                     4                                                   March 2002
Review of National Endowment for the                     randomly selected and interviewed thirty employees.
Humanities Equal Employment Opportunity
Program                                                  Our review disclosed that the agency has issued admin-
March 19, 2002        OIG-02-04 (Internal Review)        istrative directives that establish the agency’s policy on
                                                         non-discrimination and implement the agency’s EEO
The overall objective of the review was to assess the    program. However, the agency has not consistently
NEH’s compliance with federal laws and regulations       implemented procedures to review, evaluate and control
and to evaluate the effectiveness of the NEH’s EEO       managerial and supervisory performance in a manner
program. A major subobjective of the review was to       as to insure a continuing affirmative application and vig-
determine the extent of the agency’s efforts to maintain orous enforcement of the policy of equal opportunity as
a continuing affirmative program to promote equal op-    outlined in 29 C.F.R. Part 1614.
portunity and to identify and eliminate discriminatory
practices and policies. To accomplish our objectives we We recommended that the agency take a more proac-
                                                         tive position to fully comply with 29 C.F.R. Part 1614.




NEH OIG Semiannual Report                                  5                                                   March 2002
                                     EXTERNAL AUDITS/REVIEWS


See Pages 2 and 3 for the list of the five IPAs              disbursements and other information reported on
reviewed. The objectives of the QCRs were to (1)             the Federal Cash Transactions Reports or the
ensure that the A-133 audits were conducted in               Financial Status Reports.
accordance with “Government Auditing Standards
(GAS)² and meet the single audit requirements; (2)       ·   There were errors in the Schedule of
identify any follow-up work needed; and (3) identify         Expenditures of Federal Awards and the Data
issues that may require the attention of NEH                 Collection Forms.
management.
                                                         ·   There was inadequate testing of council policies
We found that the audits were generally conducted in         concerning subrecipient monitoring.
accordance with applicable standards. However, the
audits did not, in all respects, meet the single audit   We made recommendations to IPAs on how to
requirements. Several exceptions were noted:             perform the audits according to the single audit
                                                         requirements. We plan on issuing a reminder to the
·   There was no evidence in the working papers that IPAs for the 56 state humanities councils that more
    the IPAs tested amounts reported by councils as      care has to be made on these audits.
    cost sharing in order to determine compliance with
    the specific requirements pertaining to matching. As we previously reported, we found that most of the
                                                         IPAs were performing preliminary year-end accounting
·   There was no evidence in the working papers that work in order to make the councils’ books and records
    the IPAs tested or reviewed the eligibility of gifts auditable. Therefore, they were expending most of
    certified by councils to release Federal matching    their agreed upon time fixing the records rather than
    funds.                                               auditing. The work on the financial statements was
                                                         adequate, however, the IPAs did not expend sufficient
·   There was no evidence in the working papers to       time on the compliance component of the audits.
    substantiate that testing had been performed on




NEH OIG Semiannual Report                                    6                                                  March 2002
                                       SINGLE AUDIT ACT REVIEWS



We receive audit reports on NEH grantee organizations      ·       Develop a policy to be used when preparing bank
from other federal agencies (mainly the Department of              reconciliations to handle old outstanding checks.
Health and Human Services), state and local
government auditors, and independent public                ·       Review current policies and procedures for
accountants. These reports are the result of OMB                   monitoring subrecipients and consider making any
Circular A-133 audits and they cover financial activity,           necessary revisions to ensure compliance with
compliance with laws and regulations, and grantee                  federal laws and regulations.
management (internal) controls over federal
expenditures.                                              ·       Consistently obtain audit reports from subrecipients.

During the six-month period ended March 31, 2002, we       ·       Include the CFDA number in all subrecipient con-
reviewed 93 OMB Circular A-133 audit reports. Seven                tracts.
of the reports contained audit findings. Five of the
reports with findings were associated with state           ·       Ensure that council headquarters is handicapped
humanities councils.                                               accessible.
In addition, we expended considerable effort            ·          Consistently follow its own regrant selection process
determining which grantees were not current with their             and maintain the necessary documentation to sup-
OMB Circular A-133 audit report submissions. We have               port the process.
discovered that several grantees do not have sufficient
funds for audits by independent public accountants. The
                                                        ·          Remit interest earned annually over $250 on Fed-
OIG is working with these organizations and their
                                                                   eral deposits to the Department of Health and Hu-
independent public accountants to develop an
                                                                   man Services.
appropriate cost-effective audit approach.
                                                           ·       Provide additional training for personnel to
To ensure that we receive OMB Circular A-133 audit
                                                                   understand the federal reporting requirements, the
reports from the state humanities councils in a timely
                                                                   relationships between council records and systems
manner, we sent an e-mail message to all of the
                                                                   and the extent of documentation required for federal
executive directors and Board chairpersons. We will
                                                                   reporting.
continue to send reminders to the state councils.

Following are some of the IPA recommendations              ·       Ensure timely submission of financial reports. In
pertaining to the councils. The councils should:                   addition, if such reports are to be filed after the due
                                                                   date, ensure that management request the appropri-
                                                                   ate extensions.
·   Develop a formal, written procurement policy that
    adheres to the requirements set forth in OMB
    Circular A-110.                                        ·       Put control procedures in place to ensure that all
                                                                   reports are reviewed by someone in management
                                                                   before submission to the appropriate Federal
                                                                   agency.



                            PRE-AWARD ACCOUNTING SYSTEM TELEPHONE SURVEYS


During this period we conducted two telephone surveys.     corrective action needs to be taken. We then obtain
During the telephone surveys, we obtain information        written assurance from the executive director, book-
from a grantee or applicant that has been awarded a        keeper/accountant and a person on the board of direc-
grant concerning their accounting and management           tors, affirming that they will make the necessary correc-
system capabilities to administer an NEH grant. If we      tive action.
find weaknesses in their systems, we advise them what




NEH OIG Semiannual Report                                      7                                                     March 2002
                                      INVESTIGATIVE ACTIVITIES

                                                      BACKGROUND


    The Inspector General Act provides the authority for        When the OIG receives a complaint or allegation of a
    the Office of Inspector General to investigate possible     criminal or administrative violation, we make a
    violations of criminal or civil laws, administrative        determination of the appropriate action to take. This
    regulations, and agency policies, which relate to the       can be an audit, an investigation, a referral to another
    programs and operations of the NEH. The OIG                 NEH office or division, or a referral to another federal
    Hotline, e-mail address, and regular mail are efficient     agency.
    and effective means of receiving allegations or
    complaints from employees, grantees, contractors,           As of October 1, 2001, one case was open. During
    and the general public. The OIG has obtained                the six months ended March 31, 2002, we received 10
    assistance from other OIGs, the Federal Bureau of           "Hotline" contacts. We are holding one matter open at
    Investigation, the Postal Inspection Service, and other     March 31, 2002.
    investigative entities as necessary.




                                               OPEN AT OCTOBER 1, 2001


·       The allegation concerned a SES staff member's                ally used government funds to go on a job
        travel. The allegation stated that the purpose of the        interview. Our investigation revealed that the alle-
        trip was fabricated and the SES staff person actu-           gation had no merit.


                                             CONTACTS DURING THIS PERIOD



    We received seven internal contacts during this period.      ·       Allegation that a grantee organization was having
                                                                         financial problems and NEH would not receive a
    ·    Employee claimed supervisor discriminates against               final product. Our inquiry revealed that the organi-
         minorities on staff. We referred the matter to the              zation was indeed in dire straights; however, there
         NEH EEO process.                                                was no indication that NEH funds were not properly
                                                                         spent and accounted for. We will continue to moni-
    ·    Five contacts concerned unwanted e-mail, i.e.,                  tor this matter.
         business opportunity scams, the Nigerian
         unclaimed money scam, etc. All were forwarded to ·              Allegation that a grantee’s books and records
         the Federal Trade Commission, and when                          would not be in an auditable position. We inquired
         applicable the Federal Bureau of Investigation.                 of the new independent accountant and learned the
                                                                         allegation had no merit.
    ·    Allegation that NEH management distributed coun-
         cil books to unconfirmed council members. We          ·         Allegation that a project director on a grant was
         learned that the NEH General Council had approval               indicted for embezzling funds. Our inquiry revealed
         and that the individuals were confirmed shortly after           that the project director had not been a grantee for
         receiving the council books. The OIG concurred                  several years and the embezzlement was not re-
         that management made the correct decision.                      lated to NEH grant activity.

    We received three allegations concerning grantees and
    applicants for NEH grants.




    NEH OIG Semiannual Report                                        8                                                     March 2002
                            MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

                              No new cases were referred for criminal prosecution.



                                   HOTLINE AND PREVENTION ACTIVITIES


We maintain a local Hotline phone number, agency             be reported to the OIG. We also use e-mail messages
e-mail address, and an Internet address. We maintain         to inform NEH staff about the OIG operations several
all three to provide additional confidentiality for those    times during the year. Posters advising staff to
persons bringing matters to the attention of the OIG.        contact the OIG are displayed throughout the agency
We continue to issue agency-wide e-mail messages to          building.
NEH staff informing them of the violations that should


                                           ANONYMOUS E-MAIL



  We now have on the NEH Intranet and the Internet a            waste, fraud, abuse,and mismanagement in an
  system for staff, grantees, contractors, etc., to report      anonymous manner.




                                          INVESTIGATION ACTIVITY



                                Open at beginning of period               1

                                 Matters brought to the OIG               10
                                 during the reporting period

                                 Total investigative contacts             11

                                  Closed or referred during               10
                                      reporting period

                                   Open at end of period                  1




NEH OIG Semiannual Report                                       9                                               March 2002
                                           OTHER ACTIVITIES


                            INDIRECT COST RATE NEGOTIATIONS/REVIEWS



Grantees are entitled to recover total project costs, both      are usually grouped into a common pool(s) and distrib-
direct and indirect. Indirect costs are those costs of an       uted to those organizational or institutional activities that
organization or institution that are not readily identifiable   benefit from them through the expedient of an indirect
with a particular project or activity but are nevertheless      cost rate(s).
necessary to the general operation of the organization or
institution and the conduct of the activities it performs.      Cognizant federal agencies approve the rates after re-
                                                                viewing cost allocation plans submitted by grantees. The
The cost of office supplies, general telephone, postage,        approved rate will generally be recognized by other fed-
accounting, and administrative salaries are types of ex-        eral agencies.
penses usually considered as indirect costs. In theory, all
such costs might be charged directly; practical difficulties, During this period, we negotiated indirect cost rates with
however, preclude such an approach. Therefore, they           two grantees.


INDIRECT COST RATE DESK REPORTS ISSUED


Grantee                                                  Report Number                  Date Issued

New York Foundation for the Arts                         OIG-02-01 (IDC)                12/19/01

GWETA, Inc.                                              OIG-02-04 (IDC)                03/28/02




                                             CONGRESSIONAL REQUESTS

                 We received and responded to several requests from both Senators and Congressmen.




                                 PARTICIPATION ON THE EXECUTIVE COUNCIL ON
                                          INTEGRITY AND EFFICIENCY


The Executive Council on Integrity and Efficiency           to combat fraud and waste in federal programs and
(ECIE) was established by the President in 1992 to          operations. OIG staff regularly attend ECIE meetings
coordinate and implement government-wide activities         and provide information to the ECIE.




NEH OIG Semiannual Report                                       10                                                      March 2002
                                  REGULATORY AND LEGISLATIVE REVIEWS


The Inspector General Act of 1978, as amended, re-       of agency programs and operations, and (2) contains
quires the Office of Inspector General to review pro-    adequate internal controls to prevent and detect fraud
posed legislation and regulations. The reviews are       and abuse. During this period we provided the ECIE
made to assess whether the proposed legislation or       with comments on various matters affecting the OIG
regulation (1) impacts on the economy and efficiency     community.




                                         OIG INTERNET AND INTRANET


The OIG has listed several semiannual reports on the         To enhance the NEH staff's recognition of the OIG
Internet. The reports are accessible through the             mission and responsibilities, we provide links to several
Inspectors General homepage (http://www.ignet.gov/           other federal agencies such as the Office of
ignet/internal/neh/html). The reports link to the NEH        Management and Budget, the General Accounting
homepage (http://www.neh.gov/html/oig/). To access           Office, the Office of Government Ethics, and the IGNET.
the semiannual reports from outside the NEH, enter the
URL http://www.ignet.gov.




                                              WORKING WITH THE AGENCY


In this period, OIG staff attended and engaged in vari-      monthly NEH Employee Association meetings. The staff
ous NEH meetings - panel meetings (where grant appli-        were also involved in the review of NEH administrative
cations are reviewed by outside consultants), pre-council    directives.
meetings (where the program divisions discuss the
panel review results with the chairman and his immedi-       The Office of Inspector General contributes to the dis-
ate staff), and the National Council meeting. In addition,   cussions; however, the office does not participate in pol-
the IG and Deputy IG attended the chairman's monthly         icy making.
policy group meetings. An OIG staffperson attended




NEH OIG Semiannual Report                                    11                                                    March 2002
                                                     TABLE I

                                   REPORTING REQUIREMENTS


The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting requirements for
semiannual reports. The requirements are listed and cross-referenced to the applicable pages in this report.


IG Act Reference            Reporting Requirements                                       Page

Section 4(a)(2)             Regulatory and Legislative Reviews……………………………… 11

Section 5(a)(1)             Significant Problems, Abuses, and Deficiencies………………… 2-7

Section 5(a)(2)             Recommendations for Corrective Action ………………………… 2-7

Section 5(a)(3)             Prior Significant Recommendations Unimplemented…………… *

Section 5(a)(4)             Matters Referred to Prosecutive Authorities……………………… 9

Section 5(a)(5)             Instances Where Information Was Refused or Not Provided…… *

Section 5(a)(6)             List of Audit Reports Issued………………………………………… 2-3

Section 5(a)(7)             Summary of Significant Reports…………………………………… 4-7

Section 5(a)(8)             Audit Reports - Questioned Costs….……………………………… 13

Section 5(a)(9)             Audit Report - Funds To Be Put to Better Use.…….…………….. 13

Section 5(a)(10)            Prior Audit Reports Unresolved…………………………………..… *

Section 5(a)(11)            Significant Revised Management Decisions………………………. *

Section 5(a)(12)            Significant Management Decisions with which OIG Disagreed…..*



* None this period




NEH OIG Semiannual Report                                  12                                                  March 2002
                                                    TABLE II
                                       INSPECTOR GENERAL-ISSUED REPORTS
                                             WITH QUESTIONED COSTS

                                                                                 Number Questioned Unsupported
                                                                                Of Reports Cost       Cost

A. For which no management decision has been made by the                             -0-    $ -0-        $ -0-
   commencement of the reporting period.

B. Which were issued during the reporting period.                                    -0-   $ -0-      $ -0 -


                                  Subtotals (A+B)                                    -0-   $ -0-         $ - 0-


C. For which a management decision was made during
   the reporting period.

        i.    Dollar value of disallowed costs.                                      -0-   $ -0-      $ - 0-


        ii.   Dollar value of costs not disallowed (grantee subsequently             -0-   $ -0-      $ - 0-
              supported all costs).


D. For which no management decision has been made by the end                         -0-   $ -0-      $ - 0-
   of the reporting period.


E. Reports for which no management decision was made within                          -0-   $ -0 -     $    -0-
   six months of issuance.


                                                 TABLE III
                                     INSPECTOR GENERAL-ISSUED REPORTS
                            WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                                                             Number        Dollar
                                                                                            Of Reports     Value

A. For which no management decision has been made by the commencement                          -0-         $-0-
   of the reporting period.

B. Which were issued during the reporting period.                                              - 0-        $-0-

C. For which a management decision was made during the reporting period.                       - 0-        $-0-

        i. Dollar value of recommendations that were agreed to by management.                  - 0-        $-0-

        ii. Dollar value of recommendations that were not agreed to by management.             -0-         $-0-

D. For which no management decision was made by the end of the reporting period.               -0-         $-0-




NEH OIG Semiannual Report                                    13                                            March 2002
                            GLOSSARY OF AUDIT TERMINOLOGY

Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a provision of a law,
regulation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure of
funds; because such cost is not supported by adequate documentation; or because the expenditure of funds for the
intended purpose is unnecessary or unreasonable.

Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at the time of the
audit.

Disallowed Cost - A questioned cost that management, in a management decision, has sustained or agreed should
not be charged to the government.

Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be used more
efficiently by reducing outlays, de-obligating program or operational funds, avoiding unnecessary expenditures, or
taking other efficiency measures.

Management Decision - The evaluation by management of the audit findings and recommendations and the
issuance of a final decision by management concerning its response to such findings and recommendations.

Final Action - The completion of all management actions, as described in a management decision, with respect to
audit findings and recommendations. When management concludes no action is necessary, final action occurs when
a management decision is made.

Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L. 100-504).




NEH OIG Semiannual Report                                  14                                                  March 2002
